                         HARFORD COUNTY STATE’S ATTORNEY’S OFFICE




Release Date: September 13, 2011
Contact: Joseph I. Cassilly, State's Attorney, 410.638.3500, or Email statty@harfordcountymd.gov

                                 WELFARE THIEF TO SERVE 5 YEARS




53 year old Sharre Anne Jones will serve 5 years in the Division of Correction for stealing $8,332.00 in
Social Security Supplemental Security Income, which was intended for her disabled 13 year old
grandson. On 12 September 2011, Judge Stephen M. Waldron sentenced Ms. Jones to a total of 15
years and suspended 10 years provided that Jones pays restitution to the Social Security Administration.

On June 14, 2011, a Harford County Circuit Court jury convicted for Theft Scheme Over $500.00. The
evidence showed that during a period extending from late 2006 until late 2008, Ms. Jones collected over
$8,332.00 in Social Security Disability Benefits intended for her disabled grandson. The defendant
deliberately falsified documents stating that the child was living with her, during the time when he was
either in a publicly funded home, or living with his mother. In either event the law required Jones to
disclose this information to the Social Security Administration and she did not. Defendant Jones was
employed by the Social Security Administration while she was committing the ongoing theft scheme.

In September of 2008, the Social Security Administration received information that Ms. Jones was
collecting benefits to which she was not entitled. An investigation was conducted by the United States
Office of the Inspector General, the agency charged with investigating criminal activity by Social Security
claimants.

As part of the original application process for benefits the defendant signed a statement acknowledging
that she may be prosecuted at the State level for criminal violations of the benefits process. Ultimately,
the prosecution of the case was handled by the Office of the State’s Attorney for Harford County.

At sentencing, Judge Waldron described the crime as “obnoxious” and one which steals from “not just
from hardworking taxpayers, but also from the people who are most hurt and the people most in need of
help in our society”.

Citing the seriousness of the offense and the defendant’s lengthy criminal history, including a prior
conviction for Possession with the Intent to Distribute Controlled Dangerous Substances and two counts
of Battery, Judge Waldron imposed a sentence above the top of the defendant’s sentencing range under
the Maryland Sentencing Guidelines. Ms. Jones must also pay $865.00 in Court Costs, a fine of $250.00
and must perform 100 hours of Community Service Work in Harford County.
